                      UNITED STATES DEPARTMENT OF EDUCATION
                                      OFFICE OF THE INSPECTOR GENERAL




                                             MAR 2 9 2006

FINAL MANAGEMENT INFORMATION REPORT
State and Local No. 06-01

TO: 	            Henry L. Johnson
                 Assistant Secretary for Elementary and Secondary Education


FROM: 	          Helen Lew
                 Assistant Inspector General for Audit Services

SUBJECT: 	 Compliance Requirements within Title I, Part A of the No Child
           Left Behind Act
           Control Number ED-OIG/S06E0027

The purpose of this Management Information Report is to provide you with the results of
our review of the compliance requirements within Title I, Part A of the Elementary and
Secondary Education Act of 1965, as amended by the No Child Left Behind (NCLB) Act.
Our review objective was to provide information to the Department of Education
(Department) and Congress to assist in determining whether all compliance requirements
are necessary in a reauthorized NCLB Act.

Background

The Office oflnspector General (DIG) previously reviewed this issue and issued a report
in February 1999 titled, An OIG Perspective on the Reauthorization ofthe Elementary
and Secondary Education Act (see attachment). The goal of that report was to improve
the effectiveness and efficiency of the Elementary and Secondary Education (ESEA) Act
of 1965. The 1999 perspective paper indicates that the number of compliance
requirements in the ESEA could be reduced to ease the administrative burden on State
Education Agencies (SEAs) and Local Education Agencies (LEAs).

The NCLB Act contains over 500 compliance requirements in Title I, Part A for SEAs
and LEAs. When the NCLB Act was passed in 2001, the focus was on greater
accountability by schools for the achievement of students. The Department has placed an
emphasis on monitoring of States to ensure compliance with the NCLB statute. Also, as
part of its monitoring, it has assessed the level of monitoring by SEAs to ensure
compliance with the law and regulations. In addition, as part of the Single Audit Act, the
Department has revised the Office of Management and Budget (OMB) A-133
Compliance Supplement and directed auditors' attention to certain compliance
requirements.

                                  400 MARYLAND AVE., S.W., WASHINGTON, DC 20202-1510
                                                 .        ~.ed.gov           .

          Our mission is to ensure e#.J q,ccess to education and to promote educational exceUence throughout the nation.
MANAGEMENT INFORMATION REPORT                                        ED-OIG/S06-E0027
State and Local No. 06-01                                                   Page 2 of4

Review Results

We identified 588 SEA and LEA compliance requirements within Title I, Part A of the
NCLB Act--566 requirements in Subpart 1 and 22 requirements in Subpart 2. We
considered a statement containing any of the words "must," "shall," or "will" as a
requirement. The Department, SEAs, and LEAs conduct annual monitoring to ensure
compliance with the requirements in the Act. We reviewed the Department's monitoring
guides and three randomly selected SEAs' monitoring guides and determined that many
of the compliance requirements were included in the monitoring guides. However, we
found that 89 of the 588 (15%) requirements (71 in Subpart 1 and 18 in Subpart 2) were
not specifically identified in any of the guides. Examples of the requirements not
identified in the monitoring guides ranged from the academic assessment in Subpart 1 to
the calculation of funds in Subpart 2.

Our review disclosed that 360 of the 588 (61 %) compliance requirements to be
completed by the SEAs and LEAs are included in the Department's monitoring guide.
The 2003 Office of Management and Budget (OMB) A-133 Compliance Supplement
provided audit coverage for 50 requirements, some of which are duplicated in the
Department's monitoring guide. However, the three SEA monitoring guides we
reviewed only covered a small number of the requirements they were responsible for
monitoring, and the guides were not consistent from state to state. For example, the New
York monitoring guide covered 66 requirements (19% of the requirements), Mississippi
covered 60 requirements (17%), and Maine only covered 38 requirements (11 %).

The 1999 perspective paper indicates that the number of compliance requirements in the
ESEA could be reduced to ease the administrative burden on SEAs and LEAs. We
believe that this condition may exist for NCLB because it appears that States are only
monitoring a minimal number of the requirements. We concluded that the requirements
not specifically identified for monitoring need to be reviewed and evaluated to determine
whether all of the requirements are necessary to fulfill the goals of the NCLB Act (see
page 5 of the attached 1999 Perspective Paper for a suggested model). In view of the
number of requirements included in the NCLB Act and the corresponding resources
necessary to comply with and monitor those requirements, the Department should ensure
that all of the requirements are necessary.

During the review, we provided our preliminary results to the Office of Elementary and
Secondary Education (OESE). OESE officials stated that monitoring is implied for a
majority of the requirements, although not spelled out specifically within the guides.
OESE believes that the requirements are being monitored. While some of these
requirements may be monitored, as stated by OESE, we suggest that OESE use the
information concerning the number of requirements to assess whether each are necessary.
MANAGEMENT INFORMATION REPORT 	                                     ED-OIG/S06-E0027
State and Local No. 06-01 	                                                  Page 3 of4


Suggestion

   1. 	 We suggest that the Assistant Secretary for Elementary and Secondary Education
        review the compliance requirements in Title I, Part A ofNCLB to determine
        whether some of the requirements can be eliminated during reauthorization.

Objective, Scope, and Methodology

The objective of our review was to provide information to the Department and Congress
to assist in determining whether all compliance requirements are necessary in a
reauthorized NCLB Act.

To achieve our objective, we­

   • 	 Identified the monitoring requirements within Title I, Part A of the NCLB Act;
   • 	 Determined if the requirements are to be completed by the Department, SEAs, or
       LEAs;
   • 	 Reviewed the Monitoring Guides for the Department from the Title I and Title II
       offices (Title II monitors the Highly Qualified Teacher Section);
   • 	 Reviewed the OMB Circular A-133 2003 Compliance Supplement;
   • 	 Reviewed the Monitoring Guides for three randomly selected States (New York,
       Mississippi, and Maine);
   • 	 Reviewed the State Enforcement Reports for the 12 States reviewed by the
       Department in the last year;
   • 	 Provided our results to the Office of Elementary and Secondary Education 

       monitoring group; 

   • 	 Reviewed OESE's response to our results.

Our review covered the NCLB Act since it was first enacted in 2001. We held an
entrance conference with OESE on August 26, 2004, and held an exit conference with
OESE on October 7, 2005. Our review was performed in accordance with the President's
Council on Integrity and Efficiency Inspection Standards.

Auditee's Comments

OESE disagrees with our finding that there are requirements in the Act that are not
monitored. OESE stated, " ... a review of monitoring documents is not an appropriate
way to determine the usefulness of individual statutory provisions." OESE suggested
that a more appropriate way to review statutory requirements is to review the findings in
State monitoring reviews and determine whether it is a statutory or an implementation
issue. OESE also stated, " ... that it collects information on many NCLB requirements
through the review of State Consolidated applications, Annual Consolidated Performance
Reports, and the Department's Financial Statement Audit."
MANAGEMENT INFORMATION REPORT                                        ED-OIG/S06-E0027
State and Local No. 06-01                                                     Page 4 of4
OESE stated they are not clear which of the requirements are not being monitored, and
they requested a list of the 89 requirements we identified as not being monitored. They
requested an opportunity to review the requirements and provide the OIG with additional
information. They also stated that using "must, shall, and will" is an oversimplification
of identifying requirements within the Act.

OIG's Response

We have not changed our finding or suggestion. During our review, OESE was provided
the results of our review and they did not provide us with any additional information that
changed our finding. OESE was aware that we were reviewing monitoring reports and
they did not provide any additional information that would help in our review. They
were also aware of how we identified the requirements-"must, shall, and will." On
several occasions, they stated that everything is monitored; however, they did not provide
sufficient information for the OIG to draw the same conclusions.

OESE stated that they monitor some requirements through the State Consolidated
applications, Annual Consolidated Performance Reports, and the Department's Financial
Statement Audit. We reviewed the above documentation that they provided us during our
review. Although OESE provided additional information, they stated that it was implied
that some requirements were being reviewed. Most of the additional information
provided was what an experienced reviewer would know what to look for when
reviewing those documents; however, we were unable to conclude that those
requirements are being monitored specifically.

Further, during the course of the review we provided an electronic spreadsheet of our
results. Therefore, OESE already had the information concerning the 89 requirements
that it requested in its response to the draft of this report. The MIR is intended for
information purposes. The OIG provided the information to OESE so they could use the
information in their preparation to review the Act prior to reauthorization.

If you would like to discuss the information presented in this memorandum or obtain
additional information, please contact Sherri Demmel at (216) 661-9530.

Attachment
                            UNITED STATES DEPARTMENT OF EDUCATION

                                OFFICE OF ELEMENTARY AND SECONDARY EDUCATION




MEMORANDUM
                                                                               FiB 2,a Z006
TO                        Sherri Demmel
                          Regional Inspector General for

FROM                    : Henry Johnson
                           Assistant Secretary

RE                      : Draft Management Information Report, Compliance
                          Requirements Within Title I ofthe No Child Left Behind Act. Control
                          Number ED-OIGlS06E0027

This is in response to the above-referenced Draft Management Infonnation Report (MIR),
Compliance Requirements Within Title Io/the No Child Left Behind Act, Control Number
ED-OIGIS06E0027. Thank you for the opportunity to provide comments.

Your stated objective in conducting this review was to provide information to the Department
ofEducation (Department) and Congress to assist in detennining whether all compliance
requirements within Title I, Part A ofthe Elementary and Secondary Education Act of 1965, as
amended by the No Child Left Behind (NCLB) Act are necessary in a reauthorized Act.

In conducting this review, the Office of the Inspector General (OIG) reviewed a number of
documents provided by the Department, including the Department's monitoring guides for­
Titles I and II, OMB Circular A-133 Compliance Supplement, as well as the monitoring
reports for Title I programs that were issued by the Department to States during the 2003-2004
monitoring cycle. The OIG provided OESE with its preliminary results in the fall of2oo4,
including a list ofNCLB requirements for which OIG could not identify a monitoring method
or procedure. OESE staffthen provided OIG with additional infonnation regarding how the
Department monitors or collects information from Stales on most of the requirements on that
list.· At that time, OESE informed the OIG that it collects information on many NCLB
requirements through the review of State Consolidated applications, Annual Consolidated
Performance Reports, and the Department's Financial Statement Audit OESE staff also
 indicated that a number of the requirements Under Subpart 2 ofTitle I, Part A apply to the
 Department and are addressed through the allocations process.

The MIR. states thatOIG has determined that the Department's monitoring guides and the three
randomly selected State monitoring guides do not specifically address 89 ofthe 588




                                     400 MAKYlAI'ID AVE•• S.W., WASHINGTON. D.C. 20202
                                                         . . . .ed.p

              Our mission is to enswe equal aa:ess to educaIion and to promote edw:aNnal ~ througMut the ntUiDn.
Page 2 - Sherri Deromel

NCLB requirements. The M1R further suggests that OESE should use the infonnation
concerning the number of requirements to assess whether each are necessary. OESE
respectfully suggests that a review ofmonitoring documents is not an appropriate way to
detennine the usefulness of individual statutory provisions. Decisions regarding
reauthorization are made based on a number of factors. Statutory provisions cannot be
evaluated in isolation because they are interrelated, and often one provision builds upon
another. Therefore, it would be more appropriate to review monitoring findings to identify
areas where multiple States are having implementation issues in order to determine if the
problem is statutory or based on some other factor(s) that require a different solution, which
mayor may not require a statutory change.

We are still not clear about the specific statutory provisions that the OIG feels are not being
monitored. As we indicated previously, our monitoring indicators are broadly written to
address a broad range of statutory provisions. Further, there are a number of statutory
provisions that are either applicable solely to the Department. such as allocations, or that apply
to other agencies such as those applicable to the Bureau of Indian Affairs. As far as State
monitoring ofNCLB requirements, we have made a number of compliance findings for lack of
adequate monitoring by States. Lack of monitoring by States indicates a compliance problem
rather than a reflection of the validity of a statutory provision.

If the OIG continues to move forward with this MIR, we request the OIG's final list ofthe 89
'missing' requirements. We feel obligated to review them and provide OIG with additional
information as to where and how the Department monitors and/or collects data from States in
each area. We caution that giving every "must," "shall" or "will" statement in NCLB the same
weight with respect to compliance determinations or monitoring responsibilities is an
oversimplification of the requirements ofNCLB. Furthermore, that approach does not reflect
the factors we have noted above when determining compliance with NCLB.

Thank you for the opportunity to respond to the draft MIR. We support your efforts to inform
the reauthorization and we are available to discuss our questions and concerns regarding this
approach.
